CERTIFICATE OF SERVICE
No. 19-930

IN THE

i§uprente Court of the liniteb iptateg

CIC SERVICES, LLC,
Petitioner,
v.
INTERNAL REVENUE SERVICE, ET AL.,
Respondent.

I, Joseph D. Henchman, do hereby certify that on July 22, 2020, three
copies of the Brief of Amicus Curiae National Taxpayers Union
Foundation in Support of Petitioner in the above-entitled case were
mailed, first class postage prepaid to:
PATRICK STRAWBRIDGE
Consovoy McCarthy PLLC
Ten Post Office Square
8th Floor South PMB #706
Boston, MA 02109
patrick@consovoymccarthy.com
Counsel for Petitioner CIC Services, LLC
JEFFREY B. WALL
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue N.W.
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent Internal Revenue Service

1

I further certify that all parties required to be served have thereby
been served.

Jo EPH D. HENCHMAN*
NATIONAL TAXPAYERS UNION FOUNDATION
122 C Street N.W. #650
Washington, DC 20001
(703) 683-5700
jbh@ntu.org
Counsel for Amicus Curiae
*Counsel of Record

2

